Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





     MEDICARE PAYMENTS 

    FOR NEGATIVE PRESSURE 

    WOUND THERAPY PUMPS 

           IN 2004





                    Daniel R. Levinson

                     Inspector General 


                       June 2007 

                     OEI-02-05-00370

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
the Department, Congress, and the public with timely, useful, and reliable information
on significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                    S U M M A R Y                                             




                  OBJECTIVE
                  To determine the extent to which claims for negative pressure wound
                  therapy pumps (the pump) met Medicare coverage criteria and supplier
                  documentation requirements in 2004.


                  BACKGROUND
                  The pump is a portable or stationary device used for the treatment of
                  ulcers or wounds that have not responded to traditional wound
                  treatment methods. Medicare covers the pump and its supplies under
                  Part B as durable medical equipment.

                  Medicare-allowed payments for the pump increased 444 percent
                  between 2001 and 2005, from $25 million to $136 million. This increase
                  raises concerns about whether the pump is being prescribed
                  appropriately in accordance with Medicare coverage criteria.

                  This study is based on a medical review of a random sample of
                  378 pump claims from the Centers for Medicare & Medicaid Services’
                  (CMS) National Claims History file that had a date of service in 2004.
                  Registered nurses with experience in wound care reviewed the medical
                  records for these claims to determine whether they met Medicare
                  coverage criteria.

                  We also conducted a separate review of the documentation provided by
                  the supplier to determine whether each claim met Medicare supplier
                  documentation requirements. The reviewers also determined whether
                  the information on the forms provided by the supplier, i.e. supplier-
                  prepared statements, was supported by the information in the medical
                  record. Lastly, we interviewed staff from the four Durable Medical
                  Equipment Regional Carriers (DMERC) and the Statistical Analysis
                  Durable Medical Equipment Regional Carrier.


                  FINDINGS
                  Almost one-quarter of pump claims in 2004 did not meet Medicare
                  coverage criteria, resulting in approximately $21 million in improper
                  payments. Medicare allowed $90 million in 2004 for pumps. Based on
                  an independent review of medical records, 24 percent of the claims for
                  these pumps did not meet Medicare coverage criteria, resulting in an




OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                           i
 E X E C U T I V E                            S U            M M A R Y

                  estimated $21 million in improper payments in 2004. An additional
                  $6 million in improper payments were made for supplies associated with
                  these claims.

                  Reviewers determined that 15 percent of all pump claims in 2004 did
                  not have sufficient documentation to determine whether the claims met
                  Medicare coverage criteria. Another 6 percent of all pump claims were
                  undocumented, while an additional 3 percent were not medically
                  necessary.
                  Virtually all pump claims met supplier documentation requirements.
                  About 2 percent of claims in 2004 did not meet supplier documentation
                  requirements. In these cases, the supplier did not provide proof of
                  delivery, or the supplier did not have a record of providing the pump to
                  the patient on the date of service in our sample. For all other claims,
                  the supplier had a signed and dated order by the treating physician and
                  proof of delivery.
                  For 44 percent of the claims, the information on the supplier-
                  prepared statement was not fully supported by the medical record.
                  Supplier-prepared statements are forms that are completed by the
                  physician or treating clinician that contain clinical information relating
                  to the initial order or continued rental of the pump. Medicare policy
                  states that there must be information in the medical record to
                  substantiate information provided on a supplier-prepared statement.

                  For 44 percent of the claims that had a supplier-prepared statement and
                  a medical record, the reviewers determined that the information on the
                  statement was not fully supported by the medical record. Additionally,
                  the reviewers found discrepancies between the medical record and the
                  supplier-prepared statement for 7 percent of the claims.
                  DMERCs had some safeguards in place to prevent improper
                  payments. Based on our interviews with staff at each of the DMERCs,
                  we found that all four DMERCs had some safeguards in place to prevent
                  or recoup improper payments for pump claims. Staff at all four
                  DMERCs reported conducting medical reviews of pump claims,
                  although their approaches differed. Two DMERCs focused their reviews
                  solely on claims for the fifth and successive months of pump use. One
                  DMERC reviewed only the supplier-prepared statements.




OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                           ii
E X E C U T I V E                          S U           M M A R Y 



                  RECOMMENDATIONS
                  Based on the results of our review, we recommend that CMS ensure
                  that claims for the pump meet Medicare coverage criteria and are paid
                  appropriately. To accomplish this, CMS should conduct additional
                  medical reviews of pump claims that are based on the medical record
                  and not only the supplier-prepared statement. CMS should also educate
                  suppliers and wound care providers about the appropriate use of the
                  pump and what needs to be documented in the medical record.

                  In addition, CMS should consider the following options to address this
                  recommendation. CMS should consider establishing advance coverage
                  determinations of pump claims from suppliers that have a high number
                  of claims that have been denied or have a pattern of overutilization.
                  CMS should consider requiring a face-to-face examination of the patient
                  by the physician and/or requiring the supplier to obtain from the
                  physician pertinent parts of the patient’s medical record that clearly
                  support the medical necessity of the pump. Lastly, CMS should
                  consider strengthening the coverage criteria for the pump and
                  increasing prepayment reviews of these claims.

                  In addition to these recommendations, we forwarded information on the
                  insufficiently documented, undocumented, and medically unnecessary
                  claims identified in our sample to CMS for appropriate action.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurs with our three recommendations to ensure that claims for
                  the pump meet Medicare coverage criteria and are paid appropriately.
                  CMS states that it will work with its contractors to: (1) prioritize
                  medical reviews of pump claims with other high-risk services,
                  (2) require that medical reviews of pump claims be based on the entire
                  medical record, and (3) direct its contractors to develop an education
                  article based on our findings. It does not concur with the five additional
                  options we recommended for consideration. We understand CMS’s
                  concerns that implementing some of our options may impose delays in
                  the provision of the pump. However, we continue to recommend that
                  CMS consider the third option—requiring the supplier to obtain
                  pertinent parts of the patient’s medical record prior to submitting a
                  claim—as an important mechanism to curb inappropriate payments.




OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                           iii
Δ         T A B L E                         O F                  C O N T E N T S




          EXECUTIVE SUMMARY ..................................... i




          INTRODUCTION ........................................... 1




          FINDINGS ................................................. 8

                    Almost one-quarter of pump claims were paid in error. . . . . . . . . . 8 


                    Virtually all claims met supplier documentation requirements . . 10 


                    Forty-four percent of claims did not support supplier-prepared


                    statements. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


                    DMERCs had some safeguards in place . . . . . . . . . . . . . . . . . . . . 11 




          R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                    Agency Comments and Office of Inspector General Response . . . 14 




          A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                    A: LMRP for Negative Pressure Wound Therapy Pumps . . . . . . 16 


                    B: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 


                    C: Confidence Intervals for Selected Estimates . . . . . . . . . . . . . . 30 


                    D: Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31 




          A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35 





OEI-02-05-00370        M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                                iv
Δ   I ND TE R
            S IO GD N U C T I O N                                              



                  OBJECTIVE
                  To determine the extent to which claims for negative pressure wound
                  therapy pumps (the pump) met Medicare coverage criteria and supplier
                  documentation requirements in 2004.


                  BACKGROUND
                  The pump is a portable or stationary device used for the treatment of
                  ulcers or wounds that have not responded to traditional wound
                  treatment methods. The device applies controlled negative or
                  subatmospheric pressure to the affected site and assists in removing
                  fluid, increasing blood flow to the site, and stimulating the growth of
                                      1
                  granulation tissue.
                  Utilization of the pump has increased dramatically in recent years.
                  Medicare-allowed payments for the rental of the pump increased
                  444 percent between 2001 and 2005, from $25 million to $136 million.2
                  This increase raises concerns about whether the pump is being
                  prescribed appropriately in accordance with Medicare coverage criteria.
                  The Negative Pressure Wound Therapy Pump
                  Medicare covers the pump under Part B as durable medical equipment
                  (DME).3 The pump is classified as a capped rental item and can be
                  billed on a monthly basis for up to 4 months, as long as it is considered
                  medically necessary. In certain circumstances, a physician may request
                  an extension after the fourth month. Medicare pays the same amount
                  for the first month as it does for each subsequent month; Medicare
                  payments for the pump averaged about $1,673 per month in 2005.4
                  Medicare also covers two types of supplies used in conjunction with the
                  pump. It covers a specialized dressing set that creates a seal around the
                  wound site to maintain subatmospheric pressure. This dressing set


                      1 Granulation tissue is a specialized tissue that is rich in tiny blood vessels and is created

                  by the body as a response to injury.
                      2 Based on data from the Centers for Medicare & Medicaid Services’s National Claims

                  History file. Allowed dollars for the pump totaled $90 million in 2004, the year from which
                  we drew our sampled claims for this study.
                     3 The DME is defined as equipment furnished by a supplier or a home health agency that
                  can withstand repeated use, is primarily and customarily used to serve a medical purpose,
                  is generally not useful to an individual in the absence of an illness or injury, and is
                  appropriate for use in the home (42 CFR § 414.202).
                      4 Medicare allowances for the pump vary by State.




OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                           1
I N T R O D       U C T               I O N

                  includes a resilient open-cell foam surface dressing, drainage tubing,
                  and an occlusive dressing.5 Medicare also covers a canister that collects
                  the drainage of fluids from the wound. The Centers for Medicare &
                  Medicaid Services (CMS) added the pump and its supplies to its list of
                  Medicare-covered DME on October 1, 2000.

                  As it does with most DME items, the supplier bills Medicare for the
                  pump and its associated supplies. If a physician determines that the
                  pump is medically necessary, the physician writes a prescription for the
                  pump and provides it to the supplier. The supplier delivers the item to
                  the beneficiary and bills Medicare on a monthly basis for the use of the
                  pump in the subsequent month.
                  At the time of our review, one company manufactured and supplied the
                  pump that was approved for billing under Medicare. This supplier was
                  responsible for billing 99.6 percent of all pump claims in 2004.6 In 2005,
                  another pump was approved for billing under Medicare, and now
                  multiple suppliers may bill Medicare for the pump.
                  Medicare Coverage Criteria
                  General provisions of the Social Security Act (the Act) govern Medicare
                  reimbursement for all services, including pumps.
                     •	      Section 1862(a)(1)(A) of the Act states that no payment may be
                             made for items or services that “are not reasonable and
                             necessary for the diagnosis or treatment of illness or injury or to
                             improve the functioning of a malformed body member.”7
                     •	      Section 1833(e) of the Act requires that providers furnish “such
                             information as may be necessary in order to determine the
                             amounts due” to receive Medicare payment.8
                  Regulations that reflect these provisions of Medicare law appear at
                  42 CFR §§ 411.15 and 424.5(a)(6).

                  Coverage criteria for the pump are found in the Local Medical Review
                  Policy (LMRP), entitled “LMRP for Negative Pressure Wound Therapy
                  Pumps.” LMRPs issued by each Durable Medical Equipment Regional
                  Carrier (DMERC) are identical and include criteria for “reasonable and

                    5 Occlusive dressing seals the wound completely to prevent infection and to prevent
                  moisture from escaping through the dressing.
                      6 The remaining claims were billed in error by other suppliers.
                      7 42 U.S.C. §1395y(a)(1)(A).
                      8 42 U.S.C. §1395l(e).




OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                           2
   I N T R O D            U C T               I O N

                  necessary” that are described below.9 One of the LMRPs is included in
                  Appendix A.

                  The LMRP includes specific criteria for initial and continued coverage of
                  the pump and its supplies. To receive initial coverage, the patient must
                  have a certain type of ulcer or wound. Also, a complete wound therapy
                  program should have been addressed prior to the application of the
                  pump. For all ulcers and wounds, this therapy program must include
                  several general measures, such as “documentation in the patient’s
                  medical record of evaluation, care, and wound measurements by a
                  licensed medical professional.”10
                  For continued coverage, a licensed medical professional must, on a
                  regular basis, directly assess the wound(s) being treated with the pump
                  and supervise or directly perform the dressing change.11 On at least a
                  monthly basis, a licensed medical professional must document changes
                  in the ulcer’s dimensions and characteristics.12 The LMRP also states
                  that the pump and its supplies will not be covered under certain
                  circumstances, such as instances in which there has not been any
                  measurable degree of wound healing in the prior month.13
                  Supplier Documentation Requirements
                  The “Medicare Program Integrity Manual” requires that to submit a
                  claim for DME, the supplier must keep on file a number of documents.14
                  For the pump, we focused on the requirements that the supplier must
                  have a written physician’s order and must maintain proof of delivery

                      9 Effective December 7, 2003, CMS contractors began converting existing LMRPs into
                  Local Coverage Determinations. The difference between LMRPs and Local Coverage
                  Determinations is that Local Coverage Determinations consist only of reasonable and
                  necessary information, while LMRPs may also contain other provisions. The LMRP that
                  covered service dates in 2004 has now been converted to “LCD for Negative Pressure Wound
                  Therapy Pumps,” effective date July 1, 2006. Available online at
                  http://www.cms.hhs.gov/mcd/viewlcd.asp?lcd_id=5008&lcd_version=20&show=all. Accessed
                  on November 7, 2006.
                    10 The policy also states that the pump will be denied at any time as not medically
                  necessary under certain circumstances, such as the presence of a fistula to an organ or body
                  cavity within the vicinity of the wound.
                    11 This criterion can be found in the Continued Coverage section of the LMRP. Available
                  online at http://coverage.cms.fu.com/mcd%5Farchive/search.asp. Accessed on August 24,
                  2005.
                      12 Ibid.
                      13 Coverage beyond 4 months is given individual consideration based on additional
                  required documentation.
                    14 CMS, “Medicare Program Integrity Manual,” chapter 5, section 2.1, Rev. 30,
                  September 27, 2002.



OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                           3
I N T R O D           U C T       I O N


                         documentation.15 In addition, the supplier may not dispense any DME
                         until it has obtained a written order.16
                         The LMRP includes more specific supplier documentation requirements
                         for the pump. It states that the supplier of the pump and supplies must
                         obtain from the treating clinician an assessment of wound healing
                         progress, based upon the wound measurements as documented in the
                         patient’s medical record, to determine whether the equipment and
                         supplies continue to qualify for Medicare coverage.17 Additionally,
                         during 2004, the LMRP required that for the fifth and successive
                         months, the supplier must include additional documentation with the
                         claim.
                         Supplier-Prepared Statements
                         To meet Medicare requirements, the supplier of the pump developed a
                         series of forms that are completed by the physician or the treating
                         clinician to determine whether Medicare coverage criteria are met.
                         These forms are supplier-prepared statements and include a series of
                         checkoff boxes that closely follow the criteria specified in the LMRP.
                         The forms include a prescription form, a clinical form, and a patient
                         demographic form. The supplier also has a wound progress form that
                         the clinician completes each month that the pump is used and another
                         form that is completed if the pump is used beyond the fourth month.

                         The “Medicare Program Integrity Manual” states that the supplier-
                         prepared statement by itself is not sufficient documentation of medical
                         necessity. It further states that there must be information in the
                         patient’s medical record that supports the medical necessity of the item
                         and the information on the supplier-prepared statement.18
                         Medical Record
                         Both the “Medicare Program Integrity Manual” and the LMRP state
                         that the patient’s medical records must contain sufficient


                             15 CMS, “Medicare Program Integrity Manual,” chapter 5, section 2.1, Rev. 30,

                         September 27, 2002.
                             16 CMS, “Medicare Program Integrity Manual,” chapter 5, section 1.1, Rev. 3,

                         November 22, 2000.
                             17 Suppliers must add a KX modifier when they bill for the pump if the coverage criteria

                         have been met. If the coverage criteria are not met, the supplier may submit additional
                         documentation with the claim to justify coverage. The KX modifier is used for both initial
                         and continued claims.
                           18 CMS, “Medicare Program Integrity Manual,” chapter 5, section 2, Rev. 3,
                         November 22, 2000.



    OEI-02-05-00370      M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                                  4
I N T R O D       U C T     I O N

                       documentation of medical necessity and may include physician,
                       hospital, nursing home, home health agency (HHA), and records from
                       other health care professionals.19 The “Medicare Program Integrity
                       Manual” further requires that if the medical record does not support the
                       medical necessity for the item, the supplier may be liable for the dollar
                       amount involved.20
                       In addition, the LMRP specifies that the medical record must include
                       documentation of the history, previous treatment regimens, and current
                       wound management for which the pump is being billed. Documentation
                       must indicate regular evaluation and treatment of the patient’s wounds.
                       Documentation of measurements of wound characteristics indicating
                       healing progress must be entered at least monthly.21
                       Claims Processing
                       At the time of the study, four DMERCs were responsible for processing
                       and paying all DME claims. The Statistical Analysis Durable Medical
                       Equipment Regional Carrier (SADMERC) was responsible for
                       identifying billing trends and offering guidance to suppliers on billing.

                       In 2006, the DMERC functions were transferred to DME Medicare
                       Administrative Contractors (MAC) and program safeguard contractors
                       (PSC). MACs process claims and conduct provider outreach and
                       education, while PSCs conduct program safeguard activities, including
                       medical reviews and fraud investigations. Also, CMS, through its
                       Provider Communications Group, works with MACs on a national level
                       to educate providers on various issues, such as billing.


                       METHODOLOGY
                       We based this study on data from several sources: (1) a medical record
                       review of a random sample of pump claims, (2) a review of supplier
                       documentation for these claims, and (3) interviews with staff at the four
                       DMERCs and the SADMERC. A detailed description of the
                       methodology is provided in Appendix B.

                           19 CMS, “Medicare Program Integrity Manual,” chapter 5, section 2, Rev. 3, issued

                       November 22, 2000; “LMRP for Negative Pressure Wound Therapy Pumps (L5008),”
                       Documentation Requirements.
                         20 CMS, “Medicare Program Integrity Manual,” chapter 5, section 2.1, Rev. 30,
                       September 27, 2002.
                         21 This criterion can be found in the Documentation Requirements section of the LMRP.
                       Available online at http://coverage.cms.fu.com/mcd%5Farchive/search.asp. Accessed on
                       August 24, 2005.



     OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                                5
I N T R O D       U C T               I O N

                  For the medical review, we selected a simple random sample of
                  400 pump claims from CMS’s National Claims History file that had a
                  service date in 2004. We excluded one claim from our sample because of
                  an ongoing investigation by the Office of Inspector General. Fifty-eight
                  percent of the remaining 399 claims were for the initial month, and
                  42 percent were for subsequent months.

                  Our review was based on 378 of the 399 claims in our sample, for a
                  response rate of 95 percent. We did not include 21 claims in our
                  analysis because we were unable to locate current addresses for the
                  providers, we received the records after the review was conducted, or
                  the record was missing some specific information that may have been
                  found in another provider’s medical record, which we were unable to
                  obtain in our study timeframe.

                  We requested the medical records from the physician who prescribed
                  the pump and any HHAs and/or skilled nursing facilities (SNF) that
                  billed Medicare for services provided to the beneficiary on the sampled
                  claim. We included the medical records from these providers because
                  they may have documentation about the wounds for which the pumps
                  were being billed.

                  We used a contractor to conduct the medical review. The reviewers
                  included three registered nurses, each of whom had at least 5 years of
                  wound care experience. The reviewers used a standardized instrument
                  to review the medical record and determine whether each sampled
                  claim met Medicare coverage criteria. The objective of the review was to
                  determine whether the medical record substantiated the claim. The
                  reviewers did not refer to the supplier-prepared statements in
                  determining whether the medical record supported the claim.
                  We analyzed the data from the medical review to determine the
                  proportion of claims that did not meet Medicare coverage criteria. We
                  looked for differences between the error rates for initial claims and
                  continued claims. We also identified the supplies associated with the
                  inappropriate pump claims that were billed within 30 days after the
                  service date of the pump claim. We reasoned that if the pump claim
                  were inappropriate, any supplies billed during this time period were
                  also inappropriate. We calculated the total dollars paid in error for the
                  pump claims and the associated supplies.

                  In collaboration with the reviewers, we conducted a separate review of
                  the documentation provided by the supplier. To accomplish this, we
                  requested all of the documentation from the supplier related to each of

OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                           6
I N T R O D         U C T          I O N

                     the sampled claims. The supplier provided documentation for 396 of the
                     399 claims in our sample. This documentation usually consisted of
                     proof-of-delivery receipts and supplier-prepared statements such as
                     monthly progress forms.

                     We reviewed the documentation to determine whether it met Medicare
                     supplier documentation requirements. Specifically, we determined
                     whether there was a signed and dated physician order, proof of delivery,
                     and additional documentation for claims that extended beyond
                     4 months. The contractor then reviewed the supplier-prepared
                     statement for each claim to determine whether the information on the
                     statement was supported by the medical record.

                     Lastly, we interviewed staff at all four DMERCs and at the SADMERC.
                     Our questions focused on the types of program safeguards each DMERC
                     had in place to prevent and recoup improper payments for pump claims.
                     Standards
                     Our review was conducted in accordance with the “Quality Standards
                     for Inspections” issued by the President’s Council on Integrity and
                     Efficiency and the Executive Council on Integrity and Efficiency.




  OEI-02-05-00370    M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                              7
Δ      F I N D I N G S



 Almost one-quarter of pump claims in 2004 did               Medicare allowed $90 million in
not meet Medicare coverage criteria, resulting in            2004 for wound therapy pumps.
                                                             Based on an independent review
approximately $21 million in improper payments
                                                             of medical records, 24 percent of
                     the claims for these pumps did not meet Medicare coverage criteria,
                     resulting in an estimated $21 million in improper payments in 2004.
                     The majority of these improper payments were for claims with
                     insufficient documentation. There was no statistically significant
                     difference in the overall error rate between claims for initial coverage
                     and claims for continued coverage. Table 1 below describes the error
                     rates and the estimated dollars paid in error. Appendix C provides the
                     confidence intervals for the key estimates.

                     An additional $6 million in improper payments were made for supplies
                     associated with the pump claims that did not meet Medicare coverage
                     criteria. Medicare pays for supplies, including canisters and wound
                     dressings, that are used in conjunction with the pump. These improper
                     payments were for supplies that were billed within 30 days after the
                     service date of the pump claims that did not meet Medicare coverage
                     criteria.

                      Table 1: Coverage and Documentation Errors for
                      Negative Pressure Wound Therapy Pumps, 2004
                      Type of Error                                          Claims                  Allowed Amount

                      Insufficient documentation                              14.8%                     $12,800,567

                      Undocumented                                              5.8%                      $4,993,943

                      Medically unnecessary                                     3.4%                      $2,927,484

                      Total Errors                                            24.1% *                   $20,721,994


                     * Total does not equal the sum of individual rows because of rounding.
                     Source: Office of Inspector General medical review results, 2006.



                     Insufficient documentation. Nearly 15 percent of all pump claims in 2004
                     did not have sufficient documentation to determine whether the claims
                     met Medicare coverage criteria. In almost half of these cases, there was
                     no documentation in the medical record indicating that the pump was
                     ordered or used. In other cases, the type of wound for which the pump
                     was prescribed was not clearly indicated, or the size of the wound was

   OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                              8
F   I N D I N G        S


                      relatively small and the reviewers could not determine whether the
                      pump was medically necessary.

                      For continued coverage, the majority of the claims that were
                      insufficiently documented did not include any documentation of changes
                      in the dimensions or characteristics of the wound or did not show that
                      the wound was healing. Some of the records also did not indicate that a
                      licensed medical professional was directly assessing the wound being
                      treated with the pump or supervising or directly performing the
                      dressing changes on a regular basis, as required.

                      Undocumented. About 6 percent of all pump claims in 2004 were
                      undocumented. For these claims, neither the physician who ordered the
                      pump nor the HHA nor the SNF that we identified submitted any
                      documentation that corresponded to the time period of our review. In
                      one instance, the physician acknowledged that the patient was never
                      placed on the pump. In another instance, the physician stated that she
                      did not have any records to substantiate the order.

                      Medically unnecessary. Reviewers determined that 3 percent of all
                      pump claims in 2004 were not medically necessary. In one instance,
                      documentation showed that there was a fistula to an organ or body
                      cavity within the vicinity of the wound. According to the LMRP,
                      coverage must be denied if such a condition exists.22 In another
                      instance, the claim was not medically necessary because the pump was
                      used on a patient who had unna boots placed on the wound. An unna
                      boot is a dressing that envelops the wound like a cast and cannot be
                      used in conjunction with the pump.

                      For continued coverage, nearly all of the claims that were not medically
                      necessary did not have a measurable degree of healing over the past
                      month. In a few of these cases, the wound size actually increased.




                          22 “LMRP for Negative Pressure Wound Therapy Pumps (L5008),” § B(2).




    OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                               9
  F   I N D I N G         S           




         Virtually all pump claims met supplier            Medicare requires suppliers to keep
                                                           on file a number of documents,
                   documentation requirements
                                                           including the physician order and
                     proof of delivery, for each claim. It also requires that the supplier
                     possess the physician order before delivering the pump.23 About
                     2 percent of claims in 2004 did not meet these requirements. In each
                     case, the supplier either did not provide proof of delivery or did not have
                     a record of providing the pump to the patient on the date of service in
                     our sample.

                     For all other claims, the supplier had the appropriate documentation,
                     i.e., a signed and dated order by the treating physician and proof of
                     delivery. In addition, when we compared the dates on the physician
                     order and the proof of delivery, we found that the pump had been
                     delivered on or after the date on the physician order in every case, as
                     required. The supplier also had the additional required documentation
                     to justify continued coverage for all of the claims for the fifth and
                     successive months.

                                                           Supplier-prepared statements are
For 44 percent of the claims, the information on
                                                           completed by the physician or
  the supplier-prepared statement was not fully            treating clinician and contain
               supported by the medical record             clinical information relating to the
                                                           initial order or continued coverage
                     of the pump. According to the “Medicare Program Integrity Manual,”
                     there must be information in the medical record to substantiate the
                     information provided on a supplier-prepared statement.24 The supplier
                     provided prepared statements for 99 percent of the claims in our
                     sample. For the claims that had both a supplier-prepared statement
                     and a medical record, the reviewers compared the information on the
                     statement to the information in the medical record.25
                     For 44 percent of these claims, the reviewers determined that the
                     information on the supplier-prepared statement was not fully supported
                     by the medical record. The supplier-prepared statements commonly had


                       23 CMS, “Medicare Program Integrity Manual,” chapter 5, section 1.1, Rev. 3,
                     November 22, 2000.
                         24 Ibid.
                         25 The reviewers compared the information on the clinical form and on the wound

                     progress form to the information in the medical record. The reviewers conducted this
                     analysis for the claims that had supplier-prepared statements and medical records. This
                     analysis included a total of 348 claims.



   OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                              10
   F   I N D I N G             S


                  wound measurements that were not noted in the medical record. Other
                  types of information that were not supported by the medical record
                  included the type of wound, other therapies tried prior to the pump
                  order, an indication that the pump was being used, or an indication that
                  regular assessments of the wound were being conducted.

                  Additionally, for 7 percent of the claims that had a supplier-prepared
                  statement, the reviewers found discrepancies between the information
                  on the supplier-prepared statement and the medical record. In these
                  instances, the number, type, location, and/or existing measurements of
                  the wound in the medical record did not match the information on the
                  supplier-prepared statement. For example, in one instance, the
                  supplier-prepared statement indicated that the wound was a pressure
                  ulcer but the medical record indicated that the wound was a nonhealing,
                  infected, postamputation wound. In another example, the reviewer
                  noted that the measurements recorded in the medical record were
                  “much smaller” than the measurements recorded in the supplier-
                  prepared statement, despite the fact that the measurements were taken
                  3 days apart.

                                                        Based on our interviews with the
  DMERCs had some safeguards in place to
                                                        medical director and other officials
             prevent improper payments                  at each of the DMERCs, we found
                  that all four DMERCs had some safeguards in place to prevent or
                  recoup improper payments for pump claims. All of the DMERCs had
                  automated computer edits to flag issues for possible review, such as an
                  edit for the KX modifier, which the supplier adds to the claim if all of
                  the criteria in the LMRP are met.26 Staff at the DMERCs also reported
                  having other edits in place that were more general in nature. These
                  edits included checks to determine whether the claim included a
                  diagnosis code, whether the beneficiary was covered by Medicare, and
                  where the service or item was provided.

                  Additionally, staff at all four DMERCs reported conducting medical
                  reviews of pump claims, although their approaches differed. In the past
                  5 years, one DMERC conducted postpayment reviews of pump claims
                  and another conducted both postpayment and prepayment reviews. The
                  remaining two DMERCs conducted prepayment reviews, but the


                     26 If the criteria are not met, the supplier must include additional documentation with
                  the claim to justify coverage. Claims that do not have the KX modifier are automatically
                  flagged for possible review.



OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                           11
         F   I N D I N G                S

                  reviews covered only claims for the fifth and successive months of pump
                  use. Also, the number of pump claims each DMERC reviewed in 2004
                  varied. One DMERC reviewed 7,900 pump claims, while another
                  DMERC did not review any claims during this time period.

                  To conduct these medical reviews, all four DMERCs requested the
                  documentation from the supplier. Three of the DMERCs relied on the
                  supplier to collect the medical records from the providers, and they
                  based their reviews on these records. The fourth DMERC reviewed only
                  the supplier-prepared statement for each claim. All four DMERCs
                  commented that they relied on a combination of the coverage criteria
                  and clinical judgment to determine whether the pump was medically
                  necessary and met Medicare coverage criteria. They also noted that
                  their reviews or claim denials occasionally resulted in education to the
                  supplier with the expectation that the supplier would then, in turn,
                  educate physicians when needed.




OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                           12
ΔR   RE EC CO O
              M M
                M EM NE DN AD T AI TO I N OS N S                                                        




                   We found that based on a review of medical records, 24 percent of all
                   pump claims in 2004 did not meet Medicare coverage criteria, resulting
                   in an estimated $21 million in improper payments. We also found that
                   44 percent of the claims had information on the supplier-prepared
                   statement that was not fully supported by the medical record.

                   Based on the results of our review, we recommend that CMS, through
                   its Provider Communications Group and DME contractors:
                   Ensure that claims for the pump meet Medicare coverage criteria and are
                   paid appropriately
                   CMS should conduct the following activities to address this
                   recommendation:
                      •	      CMS should instruct PSCs to conduct additional medical 

                              reviews of pump claims and to focus on claims for the initial 

                              month as well as for subsequent months. 

                      •	      CMS should instruct PSCs to review the medical record and not
                              only the supplier-prepared statements to determine whether a
                              claim meets Medicare coverage criteria.
                      •	      CMS, through its Provider Communications Group, should work
                              with MACs to educate suppliers and providers about the criteria
                              required for Medicare coverage of the pump. Education should
                              be focused on the information that needs to be documented in
                              the medical record.

                   CMS should also consider the following options to address this
                   recommendation:
                      •	      Establish advance coverage determinations of pump claims from
                              suppliers that have a high number of claims that have been
                              denied or a pattern of overutilization, pursuant to § 1834(a)(15)
                              of the Act.
                      •	      In a manner similar to the requirements for power mobility
                              devices, (1) require a face-to-face examination of the patient by
                              the physician before writing the order for the pump and at
                              regular intervals for continued coverage and (2) require the
                              supplier to obtain a written report of these examinations and
                              other relevant documentation from the physician that clearly
                              supports the medical necessity for the pump.



 OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                            13
R 	E C O     M M E N D A T                      I O N               S

                         •	      As an alternative to the previous suggestion, require the
                                 supplier to obtain from the physician or treating clinician
                                 pertinent parts of the patient’s medical record that clearly
                                 support the medical necessity of the pump. Such documentation
                                 could include a digital picture of the wound that includes a scale
                                 to document the size of the wound.
                         •	      Further strengthen the coverage criteria for the pump to ensure
                                 that the pump is provided only when it is medically necessary.
                         •	      Increase prepayment reviews of pump claims.

                      In addition to these recommendations, we forwarded information on the
                      insufficiently documented, undocumented, and medically unnecessary
                      claims identified in our sample to CMS for appropriate action.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurs with our three recommendations to ensure that claims for
                      the pump meet Medicare coverage criteria and are paid appropriately.
                      CMS states that it will work with PSCs to prioritize medical reviews of
                      pump claims with other high-risk services. It will also require that
                      medical reviews of pump claims be based on the entire medical record.
                      Finally, it will direct its contractors to develop an education article
                      based on our findings.

                      CMS does not concur with the five additional options we recommended
                      for consideration. Specifically, it notes that advance coverage
                      determinations and face-to-face examinations may impose significant
                      delays or difficulties in the provision of the pump, which is often
                      prescribed in urgent situations. It believes that the alternative option
                      we proposed, requiring suppliers to obtain medical records to support
                      medical necessity, is sufficiently addressed by current requirements. It
                      also believes that our findings do not support changes to the coverage
                      criteria and increased prepayment reviews.

                      We understand CMS’s concerns that implementing advance coverage
                      determinations or face-to-face examinations may impose significant
                      delays in the provision of the pump. However, we continue to
                      recommend that CMS consider the third option—requiring the supplier
                      to obtain pertinent parts of the patient’s medical record prior to
                      submitting a claim for the pump—as an important mechanism to curb
                      inappropriate payments. CMS notes that suppliers are already

    OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                               14
R   E C O        M M E N D A T                         I O N               S

                      required to submit information from the patient’s medical record to
                      support the medical necessity of the item. We note that section 5.7 of
                      the “Program Integrity Manual” specifically states that the
                      documentation in the patient’s medical record does not have to be
                      routinely sent to the supplier or the DMERC, and that the DMERC may
                      request the information in selected cases. Based on our review, we
                      found that in practice, the supplier typically asks the ordering physician
                      to complete a supplier-prepared statement and that for 44 percent of the
                      claims, the supplier-prepared statement was not supported by the
                      medical record. Therefore, requiring that suppliers obtain pertinent
                      parts of the patient’s medical record may help to ensure that suppliers
                      are submitting appropriate claims. Appendix D provides the full text of
                      CMS’s comments.




    OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                               15
Δ        A P P E N D I X ~ A                                          





                LMRP for Negative Pressure Wound Therapy (NPWT) Pumps


This Appendix contains the coverage and payment rules, the supplier documentation
requirements, and the HCPCS codes effective in 2004 as they appeared in LMRPs issued by all
four DMERC regions.27 We have included only sections of these LMRPs that are relevant to our
study. Full copies of LMRPs from all DMERC regions can be found at
http://coverage.cms.fu.com/mcd%5Farchive/search.asp.


                                                         LMRP Information

A "Local Coverage Determination" (LCD), as established by Section 522 of the Benefits
Improvement and Protection Act, is a decision by a fiscal intermediary or carrier whether to
cover a particular service on an intermediary-wide or carrier-wide basis in accordance with
Section 1862(a)(1)(A) of the Social Security Act (i.e., a determination as to whether the service is
reasonable and necessary). The difference between LMRPs and LCDs is that LCDs consist only
of "reasonable and necessary" information, while LMRPs may also contain category or statutory
provisions.

The final rule establishing LCDs was published November 11, 2003. Effective December 7, 2003,
CMS's contractors will begin issuing LCDs instead of LMRPs. Over the next 2 years (until
December 31, 2005) contractors will convert all existing LMRPs into LCDs and articles. Until
the conversion is complete, for purposes of a 522 challenge, the term LCD will refer to both 1.)
Reasonable and necessary provisions of an LMRP and, 2.) an LCD that contains only reasonable
and necessary language. Any non-reasonable and necessary language a contractor wishes to
communicate to providers must be done through an article.



Indications and Limitations of Coverage and/or Medical Necessity

For any item to be covered by Medicare, it must: 1) be eligible for a defined Medicare benefit
category, 2) be reasonable and necessary for the diagnosis or treatment of illness or injury or to
improve the functioning of a malformed body member, and 3) meet all other applicable Medicare
statutory and regulatory requirements. For the items addressed in this medical policy, the
criteria for "reasonable and necessary" are defined by the following indications and limitations
of coverage and/or medical necessity.

                             27 The HCPCS codes contained in these LMRPs were revised, effective April 1, 2004.

                         This Appendix contains the permanent codes that became effective on that date. Our
                         sample included claims from 2004 associated with the HCPCS codes in effect both before
                         and after the LMRP revision.



      OEI-02-05-00370    M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                                  16
A    P   P E N D        I X      ~          A




    For an item addressed in this policy to be covered by Medicare, a written signed and dated order
    must be received by the supplier prior to delivery of the item. If the supplier delivers the item
    prior to receipt of a written order, it will be denied as noncovered. If the written order is not
    obtained prior to delivery, payment will not be made for that item even if a written order is
    subsequently obtained. If a similar item is subsequently provided by an unrelated supplier who
    has obtained a written order prior to delivery, it will be eligible for coverage.

    EQUIPMENT:

    INITIAL COVERAGE:

    An NPWT pump and supplies are covered when either criterion A or B is met:

    A) Ulcers and Wounds in the Home Setting:

    The patient has a chronic Stage III or IV pressure ulcer, neuropathic (for example, diabetic)
    ulcer, venous or arterial insufficiency ulcer, or a chronic (being present for at least 30 days) ulcer
    of mixed etiology. A complete wound therapy program described by criterion 1 and criteria 2, 3,
    or 4, as applicable depending on the type of wound, should have been tried or considered and
    ruled out prior to application of NPWT.

    1) For all ulcers or wounds, the following components of a wound therapy program must include
    a minimum of all of the following general measures, which should either be addressed, applied,
    or considered and ruled out prior to application of NPWT:

    a) Documentation in the patient’s medical record of evaluation, care, and wound measurements
    by a licensed medical professional, and

    b) Application of dressings to maintain a moist wound environment, and

    c) Debridement of necrotic tissue if present, and

    d) Evaluation of and provision for adequate nutritional status.

    2) For Stage III or IV pressure ulcers:

    a) The patient has been appropriately turned and positioned, and




          OEI-02-05-00370     M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                                       17
A    P   P E N D        I X      ~          A




    b) The patient has used a group 2 or 3 support surface for pressure ulcers on the posterior trunk
    or pelvis (see DMERC medical policy on support surfaces), (a group 2 or 3 support surface is not
    required if the ulcer is not on the trunk or pelvis) and

    c) The patient’s moisture and incontinence have been appropriately managed.


    3) For neuropathic (for example, diabetic) ulcers: 


    a) The patient has been on a comprehensive diabetic management program, and


    b) Reduction in pressure on a foot ulcer has been accomplished with appropriate modalities. 


    4) For venous insufficiency ulcers:


    a) Compression bandages and/or garments have been consistently applied, and 


    b) Leg elevation and ambulation have been encouraged. 


    B) Ulcers and Wounds Encountered in an Inpatient Setting: 



    1) An ulcer or wound (described under A above) is encountered in the inpatient setting and,
    after wound treatments described under A-1 through A-4 have been tried or considered and
    ruled out, NPWT is initiated because it is considered in the judgment of the treating physician,
    the best available treatment option.

    2) The patient has complications of a surgically created wound (for example, dehiscence) or a
    traumatic wound (for example, pre-operative flap or graft) where there is documentation of the
    medical necessity for accelerated formation of granulation tissue which cannot be achieved by
    other available topical wound treatments (for example, other conditions of the patient that will
    not allow for healing times achievable with other topical wound treatments).

    In either situation B-1 or B-2, NPWT will be covered when treatment continuation is ordered
    beyond discharge to the home setting.

    If criterion A or B above is not met, the NPWT pump and supplies will be denied as not 

    medically necessary. 





          OEI-02-05-00370     M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                                       18
A   P   P E N D      I X       ~          A



    NPWT pumps (E2402) must be capable of accommodating more than one wound dressing set for
    multiple wounds on a patient. Therefore, more than one E2402 billed per patient for the same
    time period will be denied as not medically necessary.


    OTHER EXCLUSIONS FROM COVERAGE:

    An NPWT pump and supplies will be denied at any time as not medically necessary if one or
    more of the following are present:

    - the presence in the wound of necrotic tissue with eschar, if debridement is not attempted;

    - untreated osteomyelitis within the vicinity of the wound;

    - cancer present in the wound;

    - the presence of a fistula to an organ or body cavity within the vicinity of the wound.

    NPWT pumps and their supplies, which have not been specifically designated as being qualified
    for use of HCPCS codes E2402, A6550 and A6551 for billing to the DMERC via written 

    instructions from the SADMERC, will be denied as not medically necessary. 


    CONTINUED COVERAGE: 


    C) For wounds and ulcers described under A or B above, once placed on an NPWT pump and 

    supplies, in order for coverage to continue a licensed medical professional must do the following: 


    1) On a regular basis, 


    a) directly assess the wound(s) being treated with the NPWT pump, and 


    b) supervise or directly perform the NPWT dressing changes, and 


    2) On at least a monthly basis, document changes in the ulcer’s dimensions and characteristics. 


    If criteria C-1 and C-2 are not fulfilled, continued coverage of the NPWT pump and supplies will 

    be denied as not medically necessary.




          OEI-02-05-00370      M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                                        19
A   P   P E N D           I X           ~           A


WHEN COVERAGE ENDS:

D) For wounds and ulcers described under A or B above, an NPWT pump and supplies will be
denied as not medically necessary with any of the following, whichever occurs earliest:

1) Criteria C1-C2 cease to occur,


2) In the judgment of the treating physician, adequate wound healing has occurred to the degree
that NPWT may be discontinued,

3) Any measurable degree of wound healing has failed to occur over the prior month. There must
be documented in the patient’s medical records quantitative measurements of wound
characteristics including wound length and width (surface area), or depth, serially observed and
documented, over a specified time interval. The recorded wound measurements must be
consistently and regularly updated and must have demonstrated progressive wound healing
from month to month,

4) 4 months (including the time NPWT was applied in an inpatient setting prior to discharge to
the home) have elapsed using an NPWT pump in the treatment of any wound. Coverage beyond
4 months will be given individual consideration based upon required additional documentation,

5) Once equipment or supplies are no longer being used for the patient, whether or not by the
physician’s order.

SUPPLIES:

- Coverage is provided up to a maximum of 15 dressing kits (A6550) per wound per month
unless there is documentation that the wound size requires more than one dressing kit for each
dressing change.

- Coverage is provided up to a maximum of 10 canister sets (A6551) per month unless there is
documentation evidencing a large volume of drainage (greater than 90 ml of exudate per day).
For high volume exudative wounds, a stationary pump with the largest capacity canister must
be used. Excess utilization of canisters related to equipment failure (as opposed to excessive
volume drainage) will be denied as not medically necessary.

The medical necessity for use of a greater quantity of supplies than the amounts listed must be
clearly documented in the patient’s medical record and may be requested by the DMERC. If this
documentation is not present, excess quantities will be denied for lack of medical necessity.



        OEI-02-05-00370         M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                                         20
A   P   P E N D          I X    ~          A



        HCPCS MODIFIER:

        EY - No physician or other health care provider order for this item or service
        KX - Specific required documentation on file.


        EQUIPMENT
        E2402     NEGATIVE PRESSURE WOUND THERAPY ELECTRICAL PUMP,
                  STATIONARY OR PORTABLE


        SUPPLIES
        A6550            DRESSING SET FOR NEGATIVE PRESSURE WOUND THERAPY
                         ELECTRICAL PUMP, STATIONARY OR PORTABLE, EACH
        A6551            CANISTER SET FOR NEGATIVE PRESSURE WOUND THERAPY
                         ELECTRICAL PUMP, STATIONARY OR PORTABLE, EACH


        ICD-9 Codes that Support Medical Necessity
        Not specified.

        Diagnoses that Support Medical Necessity
        Not specified.

        ICD-9 Codes that DO NOT Support Medical Necessity
        Not specified

        ICD-9 Codes that DO NOT Support Medical Necessity Asterisk Explanation


        Diagnoses that DO NOT Support Medical Necessity
        Not specified.

        Reasons for Denials
        Items listed in this policy will be denied as not medically necessary when provided for
        conditions other than those listed in the “Indications and Limitations of Coverage and/or
        Medical Necessity” section unless it specifically states in that section that they will be denied
        as noncovered.

        Non-covered ICD-9 Codes

        Non-covered Diagnoses

        Not specified.




              OEI-02-05-00370       M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                                             21
A    P   P E N D        I X      ~          A


    Coding Guidelines
    EQUIPMENT:


    Negative pressure wound therapy (NPWT) is the controlled application of subatmospheric
    pressure to a wound using an electrical pump (described in the definition of HCPCS code E2402)
    to intermittently or continuously convey subatmospheric pressure through connecting tubing to
    a specialized wound dressing (described in the descriptor of HCPCS code A6550) which includes
    a resilient, open-cell foam surface dressing, sealed with an occlusive dressing that is meant to
    contain the subatmospheric pressure at the wound site and thereby promote wound healing.
    Drainage from the wound is collected in a canister (described in the definition of HCPCS code
    A6551).

    HCPCS code E2402 describes a stationary or portable NPWT electrical pump which provides
    controlled subatmospheric pressure that is designed for use with NPWT dressings, (A6550) to
    promote wound healing. Such an NPWT pump is capable of being selectively switched between
    continuous and intermittent modes of operation and is controllable to adjust the degree of
    subatmospheric pressure conveyed to the wound in a range from 25 to greater than or equal to
    200 mm Hg subatmospheric pressure. The pump is capable of sounding an audible alarm when
    desired pressures are not being achieved (that is, where there is a leak in the dressing seal) and
    when its wound drainage canister (A6551) is full. The pump is designed to fill the canister to full
    capacity.

    SUPPLIES:

    HCPCS code A6550 describes a dressing set which is used in conjunction with a stationary or
    portable NPWT pump (E2402), and contains all necessary components, including but not limited
    to a resilient, open-cell foam surface dressing, drainage tubing, and an occlusive dressing which
    creates a seal around the wound site for maintaining subatmospheric pressure at the wound.

    HCPCS code A6551 describes a canister set which is used in conjunction with a stationary or
    portable NPWT pump (E2402) and contains all necessary components, including but not limited
    to a container, to collect wound exudate. Canisters may be various sizes to accommodate
    stationary or portable NPWT pumps.

    Suppliers should contact the Statistical Analysis Durable Medical Equipment Regional Carrier
    (SADMERC) for guidance on the correct coding of these items.




          OEI-02-05-00370     M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                                       22
A     P   P E N D       I X       ~           A


                                                          General Information

    Documentation Requirements

Section 1833(e) of the Social Security Act precludes payment to any provider of services unless
"there has been furnished such information as may be necessary in order to determine the
amounts due such provider" (42 U.S.C. section 1395l(e)). It is expected that the patient’s medical
records will reflect the need for the care provided. The patient’s medical records include the
physician’s office records, hospital records, nursing home records, home health agency records,
records from other healthcare professionals and test reports. This documentation must be
available to the DMERC upon request.

    An order for each item billed must be signed and dated by the treating physician, kept on file by
    the supplier, and made available to the DMERC upon request. Items delivered before a signed
    written order has been received by the supplier must be submitted with an EY modifier added to
    each affected HCPCS code.


    Documentation of the history, previous treatment regimens (if applicable), and current wound
    management for which an NPWT pump is being billed must be present in the patient’s medical
    record and be available for review if requested by the DMERC. This documentation must
    include such elements as length of sessions of use, dressing types and frequency of change, and
    changes in wound conditions, including precise measurements, quantity of exudates, presence of
    granulation and necrotic tissue and concurrent measures being addressed relevant to wound
    therapy (debridement, nutritional concerns, support surfaces in use, positioning, incontinence
    control, etc.).

    Documentation of wound evaluation and treatment, recorded in the patient’s medical record,
    must indicate regular evaluation and treatment of the patient’s wounds, as detailed in the
    Coverage and Payment Section. Documentation of quantitative measurements of wound
    characteristics including wound length and width (surface area), and depth, and amount of
    wound exudate (drainage), indicating progress of healing must be entered at least monthly. The
    supplier of the NPWT equipment and supplies must obtain from the treating clinician, an
    assessment of wound healing progress, based upon the wound measurement as documented in
    the patient’s medical record, in order to determine whether the equipment and supplies continue
    to qualify for Medicare coverage. (The supplier need not view the medical records in order to bill
    for continued use of NPWT. Whether the supplier ascertains that wound healing is occurring
    from month to month via verbal or written communication is left to the discretion of the
    supplier. However, the patient’s medical records may be requested by the DMERC in order to
    corroborate that wound healing is/was occurring as represented on the supplier’s claims for
    reimbursement.)



          OEI-02-05-00370     M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                                       23
 A   P    P E N D          I X        ~           A


When billing for NPWT, an ICD-9-CM diagnosis code (specific to the fifth digit or narrative
diagnosis), describing the wound being treated by NPWT, must be included on each order and on
each claim for the equipment and related supplies.

Suppliers must add a KX modifier to a code only if all of the criteria in the “Indications and
Limitations of Coverage and/or Medical Necessity” section of this policy have been met. If the
coverage criteria for the KX modifier are not met, the supplier may submit additional
documentation with the claim to justify coverage, but the KX modifier must not be used.

A KX modifier must not be used with an NPWT pump and supplies for wounds (described under
A or B in the Coverage and Payment Rules Section) in the fifth and successive months, but
additional documentation may be submitted for individual consideration. The claim must
include a statement from the treating physician describing the initial condition of the wound
including measurements, efforts to address all aspects of wound care (listed in A-1 through A-4).
Each subsequent monthly claim must also include updated wound measurements and what
changes in wound therapy are being applied to effect wound healing.


When billing for quantities of supplies greater than those described in the policy as the usual
maximum amounts, each claim must include documentation supporting the medical necessity
for the higher utilization. This information must be attached to a hard copy claim or entered in
the narrative field of an electronic claim. Additionally, there must be clear documentation in the
patient's medical records corroborating the medical necessity of this amount.

Refer to the Supplier Manual for more information on documentation requirements.


Other Comments
A licensed health care professional, for the purposes of this policy, may be a physician,
physician’s assistant (PA), registered nurse (RN), licensed practical nurse (LPN), or physical
therapist (PT). The practitioner should be licensed to assess wounds and/or administer wound
care within the state where the beneficiary is receiving NPWT.

Lack of improvement of a wound, as used within this policy, is defined as a lack of progress in
quantitative measurements of wound characteristics including wound length and width (surface
area), or depth measured serially and documented, over a specified time interval. Wound
healing is defined as improvement occurring in either surface area or depth of the wound.




         OEI-02-05-00370     M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                                      24
A   P   P E N D           I X          ~          A


The staging of pressure ulcers used in this policy is as follows:

Stage I - Observable pressure related alteration of intact skin whose indicators as compared to
the adjacent or opposite area on the body may include changes in one or more of the following:
skin temperature (warmth or coolness), tissue consistency (firm or boggy feel) and/or sensation
(pain, itching). The ulcer appears as a defined area of persistent redness in lightly pigmented
skin, whereas in darker skin tones, the ulcer may appear with persistent red, blue, or purple
hues.

Stage II - Partial thickness skin loss involving epidermis, dermis, or both. The ulcer is
superficial and presents clinically as an abrasion, blister, or shallow crater.

Stage III - Full thickness skin loss involving damage to, or necrosis of, subcutaneous tissue that
may extend down to, but not through, underlying fascia. The ulcer presents clinically as a deep
crater with or without undermining of adjacent tissue.


Stage IV - Full thickness skin loss with extensive destruction, tissue necrosis, or damage to
muscle, bone, or supporting structures (e.g., tendon, joint capsule). Undermining and sinus
tracts also may be associated with Stage IV pressure ulcers.




        OEI-02-05-00370         M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                                         25
Δ         A P P E N D I X ~ B



      Detailed Methodology

                  Sample Selection
                  We selected a simple random sample of 400 claim line items for the
                  pump from CMS’s National Claims History file.28 First, we identified
                  the two Healthcare Common Procedure Coding System (HCPCS) codes
                  that suppliers used in 2004 to bill for the pump—K0538 and E2402.29
                  We then identified all of the allowed claims associated with these
                  HCPCS codes that had a service date in 2004.30 The universe consisted
                  of 53,507 claims that represented $89,999,824 in allowed payments.

                  From our sample of 400 claims, we excluded a claim because of an
                  ongoing investigation by the Office of Inspector General. Fifty-eight
                  percent of the remaining 399 claims were for the initial month, and
                  42 percent were for subsequent months.
                  Medical Record Request
                  Given the wide array of types of medical care that beneficiaries may
                  require when using the pump, we compiled as comprehensive a medical
                  record as possible for each claim. We requested the medical records for
                  the claims in our sample from the physician who prescribed the pump
                  and any HHAs and/or SNFs that billed Medicare for services provided
                  to the beneficiary on the sampled claim.

                  We identified the physician who ordered the pump by using the Unique
                  Physician Identification Number (UPIN) listed on each claim. We then
                  obtained the physician’s contact information from CMS’s UPIN
                  Validation File. For the claims that did not have a valid UPIN, we
                  obtained the physician contact information from the documentation
                  provided by the supplier. We requested the medical record from each
                  physician beginning from the initial evaluation of the wound(s) for
                  which the pump was ordered through 30 days after the service date on
                  the claim. We specifically asked the physician to include any
                  documentation from other providers related to the treatment of the
                  relevant wound(s).


                     28 Multiple line items for individual services and procedures may be billed within a
                  single claim. For this report, we refer to claim line items as claims.
                    29 In 2004, the temporary HCPCS code for the pump, K0538, was in effect from
                  January 1 to March 31. The permanent HCPCS code, E2402, was in effect from April 1 to
                  December 31.
                      30 We did not include claims from outside the 50 States and the District of Columbia.




OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                           26
    A   P   P E N D         I X              ~            B

                  We identified any HHAs and/or SNFs that billed Medicare for services
                  provided to the beneficiary on the sampled claim in the 3 months prior
                  to the service date. From each HHA and SNF, we requested the
                  medical record from 2 months prior to the service date on the claim
                  through 30 days after the service date. We requested that each provider
                  submit all documentation of the evaluation and management of the
                  wound(s) for which the pump was ordered.31
                  We used a contractor to collect the medical records. For the claims that
                  had out-of-date or incomplete contact information for the physician,
                  HHA, and/or SNF, the contractor searched online phonebooks, State
                  licensing boards, physician association directories, and called prior
                  medical practices to obtain updated contact information. Once an
                  address was verified, the contractor made at least three attempts to
                  obtain the medical record from each provider. On the last attempt, the
                  contractor sent a certified letter or called the provider to verify that they
                  received the request.
                  Response to OIG Medical Record Request

                  We included 378 of 399 claims in our analysis, for a response rate of
                  95 percent. We received useable medical records for 356 claims. For
                  another 22 claims, despite numerous attempts, neither the physician
                  who ordered the pump nor the HHA or SNF that we contacted
                  submitted any documentation that corresponded to the time period of
                  our review. In our analysis, we considered these claims to be
                  undocumented.

                  We did not include the remaining 21 claims in our analysis. For 11 of
                  these claims, we were not able to locate a current address for either the
                  physician, HHA, or SNF. For an additional two claims, we received the
                  records after the review had been conducted. For another eight claims,
                  we determined that the medical record was missing some specific
                  information that may have been found in another provider’s medical
                  record, which we were unable to obtain in our study timeframe.
                  Medical Record Review
                  We used a contractor to conduct the medical review. The reviewers
                  included three registered nurses, each of whom had at least 5 years of
                  wound care experience. The reviewers used a standardized instrument


                    31 For the SNF records, we specifically requested all physician, nursing, nurse’s aide,
                  physical therapist, and nutrition notes, as well as any physician orders.



OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                           27
 A   P   P E N D       I X              ~           B

                  to review the medical record and determine whether each sampled
                  claim met Medicare coverage criteria. The review instrument included
                  questions based on the criteria in the LMRP. For example, it asked
                  about the characteristics of the wound for which the pump was
                  prescribed and any existing conditions that are specifically excluded
                  from coverage. It also included specific questions depending upon the
                  type of wound and depending upon whether the claim was for initial or
                  continued coverage. The reviewers did not consider the supplier-
                  prepared statements submitted by the supplier in making their
                  determinations.

                  Test review. To test our instrument and to further train our reviewers,
                  the reviewers conducted a preliminary medical review of 20 claims that
                  we randomly selected from the universe of all claims in 2004. This
                  sample was separate from the sample of 400 used for the actual
                  review.32
                  Final sample review. Using the final instrument, the contractor
                  reviewed the medical records for the sampled claims. The reviewers
                  entered the information directly into a computer-based system that
                  included automated skip patterns and quality control checks.

                  Analysis of data. We analyzed the results of the medical review using
                  Statistical Analysis System software and identified the proportion of
                  claims that were medically unnecessary, insufficiently documented, and
                  undocumented. As part of our analysis, we looked to see whether there
                  were any statistically significant differences in the error rates between
                  initial claims and continued claims.

                  We also identified the supplies associated with the inappropriate pump
                  claims that were billed within 30 days after the service date of the pump
                  claim. We reasoned that if the pump claim was inappropriate, any
                  supplies billed during this time period were also inappropriate. We
                  calculated the total dollars paid in error for the pump claims and the
                  associated supply claims and projected this amount to the universe of
                  all pump claims and associated supply claims in 2004.
                  Review of Supplier Documentation
                  We conducted a separate review of the documentation provided by the
                  supplier. To accomplish this, we requested all of the documentation


                    32 All claims in 2004 were given a chance for selection in both samples. There was no
                  overlap of claims between the samples.



OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                           28
     A    P   P E N D          I X                ~          B

                  from the supplier related to each of the sampled claims. The supplier
                  provided documentation for 396 of the 399 claims in our sample. The
                  documentation included the forms and supplier-prepared statements
                  described in the “Background” section.

                  We reviewed the documentation to determine whether it met Medicare
                  supplier documentation requirements. Specifically, we determined
                  whether there was a signed and dated physician order and proof of
                  delivery. We also determined whether there was documentation of
                  wound healing and of continued need for coverage for claims that
                  extended beyond 4 months. The contractor then reviewed the supplier
                  documentation, i.e., the supplier-prepared statements, to determine
                  whether the information on these statements was supported by the
                  medical record.
                  Structured Interviews with DMERC Staff
                  We conducted structured telephone interviews with staff at the four
                  DMERCs and the SADMERC. We spoke with the medical director and
                  other staff at three of the DMERCs. At the fourth DMERC, we spoke
                  with the medical review manager and other staff. At the SADMERC,
                  we spoke with the medical director and other staff. Our questions
                  focused on the types of program safeguards each DMERC had in place
                  to prevent and recoup improper payments for pump claims. We also
                  asked about any analysis conducted on the pump claims and education
                  efforts provided to suppliers or physicians. Finally, we reviewed
                  supplemental documentation provided by DMERCs and the SADMERC.




OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                           29
        Δ          A P P E N D I X ~ C

              Confidence Intervals for Selected Estimates



                                                                                                                                                            95-Percent
                        Estimate Description                                                     n           Point Estimate                              Confidence Interval

 Percentage of all pump claims that did not meet
                                                                                               378                     24.1%                              19.8 – 28.4 %
 Medicare coverage criteria

 Percentage of insufficiently documented claims                                                378                     14.8%                              11.2 – 18.4 %

 Percentage of undocumented claims                                                             378                        5.8%                              3.5 – 8.2 %

 Percentage of medically unnecessary claims                                                    378                        3.4%                              1.6 – 5.3 %

 Percentage of claims that did not meet Medicare
                                                                                               399                        1.5%                              0.3 – 2.7 %
 supplier documentation requirements

 Percentage of claims in which the information on the
 supplier-prepared statement was not fully supported                                           348*                    44.3%                              39.0 – 49.5 %
 by the medical record
Source: Office of Inspector General medical review results, 2006. 

*This is the total number of claims that had both supplier-prepared statements and medical records. 





                                                                                                                                                           95-Percent
                        Estimate Description                                                     n           Point Estimate                             Confidence Interval

 Amount allowed for all pump claims that did not meet
                                                      378                                                      $20,721,994                      $17,003,520 – $24,440,469
 Medicare coverage criteria

 Amount allowed for supplies associated with pump
                                                                                               378               $5,937,137                          $4,475,555 – $7,398,719
 claims that did not meet Medicare coverage criteria

 Amount allowed for insufficiently documented claims                                           378             $12,800,567                           $9,701,155 – $15,899,978

 Amount allowed for undocumented claims                                                        378               $4,993,943                          $2,963,783 – $7,024,104

 Amount allowed for medically unnecessary claims                                               378               $2,927,484                          $1,358,427 – $4,496,541

Source: Office of Inspector General medical review results, 2006.




                    OEI-02-05-00370         M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                                                                          30
Δ    A P P E N D I X ~ D

Agency Comments




    OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                               31
A   P   P E N D     I X               ~           D            





OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                           32
  A    P   P E N D        I X              ~            D           





OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                           33
A   P   P E N D    I X              ~             D          





OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                           34
Δ   A C K N O W L E D G M E N T S                                                                        




                  This report was prepared under the direction of Jodi Nudelman,
                  Regional Inspector General for Evaluation and Inspections in the New
                  York regional office, and Meredith Seife, Deputy Regional Inspector
                  General.

                  Judy Kellis served as the team leader for this study. Central office staff
                  who contributed include Kevin Farber, Scott Horning, Scott Manley,
                  and Barbara Tedesco.




OEI-02-05-00370   M E D I C A R E PAY M E N T S   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S
                                                                                                                           35
